TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Additional Efforts Are Needed to Implement
                  the Electronics Stewardship Program and
                      Maximize the Energy Efficiency of
                        Desktop Computer Equipment



                                           June 15, 2010

                              Reference Number: 2010-20-056




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                HIGHLIGHTS


ADDITIONAL EFFORTS ARE NEEDED TO                    computer monitors that puts the monitors in
IMPLEMENT THE ELECTRONICS                           “sleep mode” during periods of inactivity.
STEWARDSHIP PROGRAM AND                             However, the IRS has not established an
MAXIMIZE THE ENERGY EFFICIENCY OF                   implementation strategy to ensure timely
DESKTOP COMPUTER EQUIPMENT                          completion of applicable action items in the
                                                    Electronics Stewardship Program and
                                                    Implementation Plan. For example, timely
Highlights                                          actions have not been taken to implement power
                                                    management (e.g., power down/sleep mode)
Final Report issued on June 15, 2010                functionality on desktop computers (also
                                                    includes laptop computers). Policies and
Highlights of Reference Number: 2010-20-056 to      procedures have not been established to
the Internal Revenue Service Chief,                 implement duplex (two-sided) printing on
Agency-Wide Shared Services, and the Chief          printers. In addition, actions to ensure
Technology Officer.                                 procurement of energy efficient desktop
                                                    computer equipment need improvement.
IMPACT ON TAXPAYERS
                                                    WHAT TIGTA RECOMMENDED
Federal agencies have been directed to improve
their energy efficiency and reduce greenhouse       TIGTA recommended that the Chief Technology
gas emissions. Additional actions by the            Officer, in coordination with the Chief,
Internal Revenue Service (IRS) to minimize the      Agency-Wide Shared Services, 1) assign clear
energy consumption of its 110,000 desktop           responsibilities to ensure effective execution of
computers and improve printing practices could      the Electronics Stewardship Program and
potentially save the IRS more than $18.2 million    Implementation Plan and require each
over 4 years.                                       organization to periodically report its progress in
                                                    completing the action items. The Chief
WHY TIGTA DID THE AUDIT                             Technology Officer should 2) develop an
This audit was initiated to determine whether the   implementation strategy and plan to ensure the
IRS has taken effective steps to ensure the         applicable energy efficient practices such as
acquisition, operation, and maintenance of          power management for desktop computers and
energy efficient desktop computer equipment.        duplex printing are implemented, as soon as
                                                    possible, to the maximum degree based on the
In January 2007, Executive Order 13423,             IRS mission needs. In addition, the Director,
Strengthening Federal Environmental, Energy,        Office of Procurement, should 3) implement an
and Transportation Management, was enacted          effective process to timely review training
to strengthen the environmental, energy, and        records and ensure employees complete
transportation management of Federal agencies.      required annual training by the June 30 due date
In July 2007, the Department of the Treasury        and 4) develop a tracking system to support the
established the Electronics Stewardship             ongoing review of IRS efforts in acquiring energy
Program and Implementation Plan to ensure           efficient electronic products.
sustainable practices in the area of electronics
and to provide policy and guidance regarding        In their response to the report, IRS management
acquisition, operations and maintenance, and        agreed with all of the recommendations and
end-of-life management.                             plans to take corrective actions to address the
                                                    issues identified.
WHAT TIGTA FOUND
The IRS has taken actions to improve the
energy efficiency of desktop computer
equipment. For example, the IRS is purchasing
energy efficient desktop computer equipment
and has enabled an energy saving feature on
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  June 15, 2010


 MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES
                CHIEF TECHNOLOGY OFFICER

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Additional Efforts Are Needed to Implement the
                                Electronics Stewardship Program and Maximize the Energy Efficiency
                                of Desktop Computer Equipment (Audit # 200920032)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) has taken effective steps to ensure the acquisition, operation, and maintenance of energy
 efficient desktop computer equipment. 1 This review was part of our Fiscal Year 2010 Annual
 Audit Plan and addresses the major management challenge of Modernization of the IRS.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
 Services), at (202) 622-5894.




 1
     Desktop computer equipment includes desktop computers, laptop computers, and computer monitors.
                                  Additional Efforts Are Needed to Implement the
                                Electronics Stewardship Program and Maximize the
                                Energy Efficiency of Desktop Computer Equipment




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Actions Have Been Taken to Improve the Energy Efficiency
          of Desktop Computer Equipment .................................................................Page 3
          The Electronics Stewardship Program Was Not Timely
          Implemented .................................................................................................Page 3
                    Recommendation 1:..........................................................Page 6

                    Recommendation 2:..........................................................Page 7

          Actions to Ensure Procurement of Energy Efficient Desktop
          Computer Equipment Need Improvement ....................................................Page 7
                    Recommendation 3:..........................................................Page 8

                    Recommendation 4:..........................................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Outcome Measure ................................................................Page 14
          Appendix V – Management’s Response to the Draft Report .......................Page 15
           Additional Efforts Are Needed to Implement the
         Electronics Stewardship Program and Maximize the
         Energy Efficiency of Desktop Computer Equipment




                   Abbreviations

EUES         End User Equipment and Services
EPEAT®       Electronic Product Environmental Assessment Tool
IRS          Internal Revenue Service
REFM         Real Estate and Facilities Management
                             Additional Efforts Are Needed to Implement the
                           Electronics Stewardship Program and Maximize the
                           Energy Efficiency of Desktop Computer Equipment




                                            Background

On January 24, 2007, President George W. Bush signed Executive Order 13423, Strengthening
Federal Environmental, Energy, and Transportation Management. The purpose of this policy
was to strengthen the environmental, energy, and transportation management of Federal agencies
by “conducting their environmental, transportation, and energy-related activities under the law in
support of their respective missions in an environmentally, economically, and fiscally sound,
integrated, continuously improving, efficient, and sustainable manner.” In July 2007, the
Department of the Treasury established the Electronics Stewardship Program and
Implementation Plan to ensure sustainable practices in the area of electronics and to provide
policy and guidance regarding acquisition, operations and maintenance, and end-of-life
management. Treasury Directive 75-04 was issued in December 2008, establishing the policies
and assigning responsibilities for maintaining the comprehensive energy programs within the
Department of the Treasury and complying with all relevant regulations and Executive Orders.
Executive Order 13423 requires Federal agencies to, in part:
    •   Improve energy efficiency of agency facilities 3 percent annually through the end of
        Fiscal Year 2015 or 30 percent by Fiscal Year 2015 compared to the Fiscal Year 2003
        baseline year, thereby reducing greenhouse gas.
    •   Acquire electronic products (at least 95 percent) that are an Electronic Product
        Environmental Assessment Tool (EPEAT®)-registered product, unless there is no EPEAT
        standard for such product, and enable ENERGY STAR® features on agency computers
        and monitors.
EPEAT is a system that helps purchasers evaluate, compare, and select electronic products based
on their environmental attributes. The system currently covers desktop computers, 1 thin clients, 2
workstations, and computer monitors. Computer equipment that meets 23 required
environmental performance criteria may be registered in EPEAT by their manufacturers in
40 countries worldwide. One of the 23 required criteria is for products to be ENERGY STAR
labeled. Registered products are rated Gold, Silver, or Bronze depending on the percentage of
28 optional criteria they meet above the baseline criteria. Figure 1 provides the EPEAT
registration levels.




1
 Includes both desktop and laptop computers.
2
 A computer or a computer program which depends heavily on some other computer to fulfill its traditional
computational roles.
                                                                                                            Page 1
                        Additional Efforts Are Needed to Implement the
                      Electronics Stewardship Program and Maximize the
                      Energy Efficiency of Desktop Computer Equipment



                         Figure 1: EPEAT Registration Levels

                          EPEAT              EPEAT        EPEAT
                           Bronze            Silver        Gold
                         Meets all       Meets all       Meets all
                         23 required     23 required     23 required
                         criteria        criteria plus   criteria plus
                                         at least 50%    at least 75%
                                         of the          of the
                                         optional        optional
                                         criteria        criteria

                     Source: www.EPEAT.net

ENERGY STAR is a joint program of the Environmental Protection Agency and the Department
of Energy designed to help save money and protect the environment through energy efficient
products and practices. An ENERGY STAR labeled computer uses 70 percent less electricity
than computers without this designation. If the proper power management features are enabled,
inactive ENERGY STAR labeled desktop computers enter a “sleep mode” and use 4 watts or
less of power. Spending a large portion of time in low-power mode not only saves energy, but
helps equipment run cooler and last longer.
The Department of the Treasury Affirmative Procurement Program incorporates requirements of
Executive Order 13423 related to acquisition, use, and disposition of green products and
services. The Internal Revenue Service (IRS) implemented its Green Procurement Plan to
supplement the Department of the Treasury’s Affirmative Procurement Program.
This review was performed at the IRS’ End User Equipment and Services (EUES) organization’s
offices in New Carrollton, Maryland, and the Agency-Wide Shared Services organization’s
Office of Procurement in Oxon Hill, Maryland, during the period September 2009 through
March 2010. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                        Page 2
                                Additional Efforts Are Needed to Implement the
                              Electronics Stewardship Program and Maximize the
                              Energy Efficiency of Desktop Computer Equipment




                                        Results of Review

Actions Have Been Taken to Improve the Energy Efficiency of
Desktop Computer Equipment

The IRS is purchasing EPEAT-registered desktop computer equipment
Executive Order 13423 directs agencies to acquire electronic products (at least 95 percent) that
are an EPEAT-registered product, unless there is no EPEAT standard for such product. We
found that 98 percent of the 76,706 desktop computers and monitors purchased in Fiscal
Year 2009 were rated EPEAT Gold. In addition, the desktop computers were purchased via
General Services Administration Schedules, which include all the required Federal Acquisition
Regulations clauses to ensure energy efficient equipment is purchased.

The IRS has enabled energy saving settings on computer monitors
The EUES organization enabled an ENERGY STAR feature on computer monitors as required
by Executive Order 13423. In January 2008, the IRS began sending out software changes to
update energy settings on monitors. The settings put the monitors to sleep during periods of
inactivity, thereby saving energy. In August 2009, the IRS distributed a patch 3 that ensured the
ENERGY STAR sleep mode on monitors was enabled. As of September 11, 2009, over
99 percent of the monitors had the ENERGY STAR feature enabled. Information quantifying
the energy savings due to enabling the sleep mode feature on the monitors was not available.
While the IRS has purchased energy efficient desktop computers and implemented some actions
to reduce energy use, additional improvements are needed to effectively and timely implement
the Electronics Stewardship Program and maximize potential cost savings.

The Electronics Stewardship Program Was Not Timely Implemented
The IRS designated the Director, Real Estate and Facilities Management (REFM), as responsible
for the Electronics Stewardship Program and Implementation Plan. However, the Director,
REFM, does not have authority over all impacted areas of the IRS. To address the authority
issue, in August 2007, the Director, REFM, proposed that a working group be established to
address the IRS’ implementation strategy and tactics in regards to the Electronics Stewardship
Program and Implementation Plan. However, the working group was not established and the
EUES organization did not designate an executive responsible for the Electronics Stewardship

3
    A piece of software designed to update a computer program or its supporting data.
                                                                                           Page 3
                           Additional Efforts Are Needed to Implement the
                         Electronics Stewardship Program and Maximize the
                         Energy Efficiency of Desktop Computer Equipment



Program and Implementation Plan until January 2009. In addition, the IRS has not developed an
implementation strategy to ensure timely completion of action items applicable to the IRS.
Figure 2 provides a timeline of key events regarding desktop computer energy efficiency.
Figure 2: Timeline of Key Events Regarding Desktop Computer Energy Efficiency

                                    Timeline                                      Dates
 Executive Order 13423 signed.                                                January 2007
 Department of the Treasury Electronics Stewardship Program and                 July 2007
 Implementation Plan signed.
 The Director, REFM, sent the Electronics Stewardship Program and             August 2007
 Implementation Plan to the Associate Chief Information Officer,
 EUES, and the Director, Procurement.
 The IRS began the initial distribution of a package (i.e., software          January 2008
 changes containing monitor settings) to update energy settings on
 monitors.
 The Internal Revenue Manual was revised in March 2008 (with an                 July 2008
 effective date of July 2008) to include the allowance of power
 management on desktop computers.
 A Director in the EUES organization was appointed to the Federal             January 2009
 Electronics Challenge Group and became aware of the Electronics
 Stewardship Program and Implementation Plan.
 EUES organization personnel became aware of the Internal Revenue              March 2009
 Manual revision allowing power management on desktop computers.
 The IRS began distributing a patch to ensure the energy settings on          August 2009
 computer monitors were enabled.
Source: IRS personnel and documentation provided by the IRS.

Timely actions have not been taken to implement power management (e.g., power down/sleep
mode) functionality on desktop computers. The IRS did not begin turning their focus to desktop
computer energy efficiency activities until January 2009, 2 years after Executive Order 13423
was signed and 18 months after the Electronics Stewardship Program and Implementation Plan
was signed. The IRS informed us that they are evaluating third-party software to assist them
with implementing power management on computers. However, the IRS could not provide a
date for when power management on the desktop computers will be implemented.
The IRS has also not established policy and procedures to implement duplex printing on printers
(i.e., two-sided printing). EUES organization personnel advised us that IRS printers are capable

                                                                                            Page 4
                         Additional Efforts Are Needed to Implement the
                       Electronics Stewardship Program and Maximize the
                       Energy Efficiency of Desktop Computer Equipment



of duplex printing, but the IRS has not developed a requirement or methodology to enforce and
monitor duplex printing. Finally, while ENERGY STAR features on computer monitors have
been enabled, some employees can reset the monitor configuration and the IRS does not have a
process to monitor whether the ENERGY STAR setting stays enabled. Management advised
that when users turn on their desktop computer, the ENERGY STAR feature is enabled.
Executive Order 13423 requires agencies to enable ENERGY STAR features on agency
computers and monitors. In August 2007, the Department of the Treasury issued its Electronics
Stewardship Program and Implementation Plan to establish policy, provide guidance on
electronics stewardship, integrate environmental accountability into the Department’s day-to-day
decision making and long-term planning processes, and fulfill the requirement of Executive
Order 13423. Agencies, including the IRS, are also required to develop a strategy for each
action item listed in the plan to ensure the implementation of sustainable environmental practices
in the area of electronics stewardship. Finally, agencies are required to promote sustainable
practices including duplex printing. The Internal Revenue Manual similarly requires the REFM
Associate Director, Logistics Management, the EUES organization, and the Office of
Procurement to develop a plan to implement electronics stewardship practices for all eligible
owned or leased electronic equipment in support of electronics stewardship goals.
The Internal Revenue Manual revision effective in July 2008 allows power management on
desktop computers; however, EUES organization personnel stated they did not become aware of
the change until March 2009. In addition, EUES organization management advised us that
resource limitations to purchase industry software prevented the IRS from implementing power
management. Also, the IRS has not implemented the Electronics Stewardship Program and
Implementation Plan item that requires agencies to promote duplex printing, and the EUES
organization has not performed the necessary research on how to invoke duplex printing without
inhibiting productivity.
Because the IRS has not implemented all required ENERGY STAR features on its computers, it
is not in compliance with Executive Order 13423 requirements and operating its desktop
computers in the most efficient manner. Based on our analysis of industry and Federal
Government results from implementing desktop power management capabilities and
presentations from software vendors being considered by the IRS, we determined that the IRS
could potentially gain annual energy cost savings from $19 to $25 per desktop computer if the
EUES organization was to enable the missing ENERGY STAR features. The IRS currently has
110,000 desktop computers in inventory. Figure 3 provides the estimated energy cost savings
once ENERGY STAR features are enabled.




                                                                                           Page 5
                           Additional Efforts Are Needed to Implement the
                         Electronics Stewardship Program and Maximize the
                         Energy Efficiency of Desktop Computer Equipment



                        Figure 3: Estimated Energy Cost Savings
                        Once ENERGY STAR Features Are Enabled

               Computers in the IRS Inventory                                         110,000
               Estimated Annual Savings Per Computer                                     $20
               Estimated Annual Savings                                        $2,200,000
               Potential Energy Cost Savings Over 4 Years                      $8,800,000
              Source: IRS personnel and documentation provided by the IRS. Also, implementing
              power management capability on desktop computers will incur software and
              maintenance costs, but the amount of the costs are not known.

Additionally, due to the delay in implementing duplex printing, the IRS has not realized the
potential cost savings related to reduced paper use. Industry information indicates that
organizations can potentially reduce annual paper costs by at least 30 percent by selecting duplex
printing as a default setting on printers. In Fiscal Year 2009, the IRS spent $7,892,442 on paper.
Figure 4 provides the estimated paper cost savings that could be realized by requiring duplex
printing when feasible.
                          Figure 4: Estimated Paper Cost Savings

              Fiscal Year 2009 Paper Cost                                       $7,892,442
              Industry Estimate of Paper Cost Reduction                                  30%
              Estimated Annual Paper Cost Savings                               $2,367,733
              Estimated Paper Cost Savings Over 4 Years                         $9,470,932
             Source: Industry best practices and documentation provided by the IRS.

The lack of an effective strategy to guide the implementation of the Electronics Stewardship
Program hampers the IRS’ ability to timely and efficiently satisfy the requirements of Executive
Order 13423. As a result, the IRS continues to not take full advantage of potential energy and
paper cost savings.

Recommendations
The Chief Technology Officer, in coordination with the Chief, Agency-Wide Shared Services,
should:
Recommendation 1: Assign clear responsibilities among the REFM organization, the
EUES organization, and the Office of Procurement to ensure effective execution of the


                                                                                                Page 6
                         Additional Efforts Are Needed to Implement the
                       Electronics Stewardship Program and Maximize the
                       Energy Efficiency of Desktop Computer Equipment



Electronics Stewardship Program and Implementation Plan, and require each organization to
periodically report its progress in completing the action items.
       Management’s Response: IRS management agreed with the recommendation. The
       Chief Technology Officer, with input from the Chief, Agency-Wide Shared Services, is
       responsible for providing updated progress reports to the Department of the Treasury.
       The reports contain measures that will reflect the progress being made in effectively
       administering the components of the Electronics Stewardship Program and
       Implementation Plan.
Recommendation 2: Develop an implementation strategy and plan to ensure the applicable
energy efficient practices such as power management for desktop computers and duplex printing
outlined in the Electronics Stewardship Program and Implementation Plan are implemented, as
soon as possible, to the maximum degree based on the IRS mission needs.
       Management’s Response: IRS management agreed with the recommendation. The
       Associate Chief Information Officer, EUES, will develop an implementation strategy and
       plan to ensure energy efficiency practices for power management on desktop computers
       as outlined in the Electronics Stewardship Program and Implementation Plan. A Unified
       Work Request, based on IRS mission needs, will be submitted to engage all required
       parties and request funding in support of implementing power management on desktop
       computers. In addition, the Associate Chief Information Officer, EUES, will develop a
       strategy and plan as outlined in the Electronics Stewardship Program and Implementation
       Plan to inform users on using duplex printing as a default and only using single-sided
       printing when absolutely necessary. A Unified Work Request, based on IRS mission
       needs, will be submitted to engage all required parties and request funding in support of
       implementing automatic duplex printing as a default on all IRS network printers.

Actions to Ensure Procurement of Energy Efficient Desktop Computer
Equipment Need Improvement

An effective process to ensure personnel complete required “buying green”
training has not been implemented
Office of Procurement personnel have not completed required training on purchasing
EPEAT-registered equipment. The training provides guidance on how to ensure desktop
computer equipment contracts meet the EPEAT criteria, information regarding EPEAT
participating manufacturers, and requirements to ensure proper Federal Acquisition Regulations
clauses are added to contracts. The “buying green” training also provides information regarding
roles and responsibilities of procurement personnel in meeting the regulations for ensuring the
purchase of energy efficient products.


                                                                                         Page 7
                         Additional Efforts Are Needed to Implement the
                       Electronics Stewardship Program and Maximize the
                       Energy Efficiency of Desktop Computer Equipment



Specifically, 84 (28 percent) of the 302 Contract Specialists, Business Operations Specialists,
and Procurement Analysts required to take “buying green” training had not taken the training.
We also found that more than one-half of the employees completing the training did so after the
training was due on June 30, 2009. Office of Procurement personnel advised us that they
manually review the completion of the training by comparing a list of all employees required to
take the training with a list of people who completed the training, and the names of employees
identified as not completing the training are provided to managers for followup. However, the
training was not timely completed because management does not have an effective process to
follow up and ensure employees timely complete the training.
Executive Order 13423 requires annual green training for all appropriate acquisition personnel.
The Electronics Stewardship Program and Implementation Plan also requires agencies to ensure
training for contracting officers and purchase card holders to support acquisition of energy
efficient equipment. Without the completion of required training, the IRS is at risk of not
complying with Executive Order 13423 and purchasing products that are not EPEAT rated and
energy efficient.

A tracking system to ensure procurement of energy efficient equipment has not
been developed
The Office of Procurement has not implemented a tracking system to ensure ongoing compliance
with the requirement to acquire EPEAT-registered desktop computers and monitors. Office of
Procurement personnel advised us that they rely upon the EUES organization to properly identify
the equipment to purchase and submit the requisition request. However, Office of Procurement
personnel do not review the requests to ensure inclusion of Executive Order 13423 and
Electronics Stewardship Program requirements.
The Electronics Stewardship Program and Implementation Plan requires agencies to develop a
tracking system for procurement of EPEAT and ENERGY STAR labeled equipment. Without a
tracking system to ensure procurement of energy efficient equipment, the Office of Procurement
cannot readily determine whether 95 percent of the desktop computer equipment purchased is
EPEAT-registered.

Recommendations
The Director, Office of Procurement, should:
Recommendation 3: Implement an effective process to timely review training records and
ensure employees complete required annual training by the June 30 due date.
       Management’s Response: IRS management agreed with the recommendation. The
       Director, Office of Procurement, will work with Learning and Education to add the
       annual Buying Green Training to each affected employee’s learning plan automatically.
       All Contract Specialists, Contracting Officers, Contracting Officers’ Technical
                                                                                         Page 8
                        Additional Efforts Are Needed to Implement the
                      Electronics Stewardship Program and Maximize the
                      Energy Efficiency of Desktop Computer Equipment



      Representatives, and Purchase Cardholders will be required to complete the Buying
      Green Training by June 30 of each year. A reminder email will be sent to all affected
      employees no later than 30 days prior to the June 30 due date. A second reminder email
      will be sent to all affected employees no later than 15 days prior to the June 30 due date.
      The Enterprise Learning Management System will be monitored by the Buying Green
      Coordinator in the Office of Procurement to ensure that all affected employees have
      taken the training. Managers of any employee who has not taken the training as of
      June 30 will be notified and a followup will occur by July 15 of each year. It is the
      responsibility of the affected employee’s manager to ensure that the required training is
      completed.
Recommendation 4: Develop a tracking system to support the ongoing review of IRS efforts
in acquiring electronic products of which at least 95 percent are EPEAT-registered.
      Management’s Response: IRS management agreed with the recommendation. The
      Director, Office of Procurement, will implement a tracking function in the new Integrated
      Procurement System as part of a maintenance release by December 1, 2011.




                                                                                           Page 9
                               Additional Efforts Are Needed to Implement the
                             Electronics Stewardship Program and Maximize the
                             Energy Efficiency of Desktop Computer Equipment



                                                                                               Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective was to determine whether the IRS had taken effective steps to ensure the
acquisition, operation, and maintenance of energy efficient desktop computer equipment. 1 To
accomplish this objective, we:
I.         Identified the requirements of the Electronics Stewardship Program and researched
           industry and Federal Government best practices to improve energy efficiency of desktop
           computer equipment.
           A. Obtained and reviewed the Electronics Stewardship Program guidelines and
              evaluated the status of the implementation plan, including actions to improve desktop
              computer equipment energy efficiency.
           B. Researched the internet to identify best practices used by industry to improve the
              energy efficiency of desktop computer equipment.
           C. Identified any Federal Government best practices that had been successfully
              implemented to reduce the energy consumption of desktop computer equipment.
           D. Obtained and reviewed audit reports from other Inspector General organizations and
              reports from the Department of Energy and the Environmental Protection Agency to
              identify recommendations and best practices that can be successfully implemented for
              the IRS desktop computer equipment.
II.        Determined whether the IRS had an effective process to ensure the acquisition of energy
           efficient desktop computer equipment.
           A. Reviewed the IRS process for the acquisition of energy efficient desktop computer
              equipment.
           B. Reviewed Modernization and Information Technology Services organization’s
              desktop 2 computer replacement efforts to determine whether they were striving to
              achieve a 4-year lifecycle for the computer equipment.
           C. Evaluated the procedure for ensuring appropriate Federal Acquisition Regulations
              clauses related to purchasing energy efficient desktop computer equipment are added
              to the requisitions.


1
    Desktop computer equipment includes desktop computers, laptop computers, and computer monitors.
2
    Includes both desktop and laptop computers.
                                                                                                      Page 10
                         Additional Efforts Are Needed to Implement the
                       Electronics Stewardship Program and Maximize the
                       Energy Efficiency of Desktop Computer Equipment



       D. Verified that Office of Procurement staff was trained on the requirements for
          purchasing energy efficient desktop computer equipment.
III.   Ascertained whether the IRS had an effective process to ensure operations and
       maintenance of energy efficient desktop computer equipment.
       A. Determined whether the EUES organization had established a process to enable
          ENERGY STAR features on desktop computers and monitors.
       B. Determined whether the EUES organization had taken effective actions to improve
          the energy efficiency of desktop computer equipment.
       C. Analyzed the amount of cost savings the IRS could achieve after enabling ENERGY
          STAR features on all IRS desktop computers and monitors.
IV.    Determined whether efforts to improve energy efficiency of the desktop computer
       equipment were being effectively monitored, measured, and reported.
       A. Evaluated the IRS’ process of monitoring acquisition, operation, and maintenance of
          energy efficient desktop computer equipment.
       B. Evaluated the IRS’ process of measuring energy efficiency improvements of desktop
          computer equipment.
       C. Evaluated the IRS’ process of reporting energy efficiency improvements of desktop
          computer equipment.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: REFM organization, EUES organization,
and Office of Procurement policies and procedures for implementing an effective Electronics
Stewardship Program to ensure the improvement of desktop computer equipment energy
efficiency. We evaluated these controls by interviewing management, reviewing desktop
computer equipment energy efficient best practices, and reviewing policies and procedures such
as the Internal Revenue Manual, Executive Orders, and the Department of the Treasury’s
Electronics Stewardship Program and Implementation Plan.




                                                                                          Page 11
                        Additional Efforts Are Needed to Implement the
                      Electronics Stewardship Program and Maximize the
                      Energy Efficiency of Desktop Computer Equipment



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Scott Macfarlane, Director
Danny Verneuille, Audit Manager
Kanika Kals, Lead Auditor
Mark Carder, Senior Auditor
Beverly Tamanaha, Senior Auditor
Tuyet Nguyen, Auditor




                                                                                     Page 12
                       Additional Efforts Are Needed to Implement the
                     Electronics Stewardship Program and Maximize the
                     Energy Efficiency of Desktop Computer Equipment



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Information Officer, Operations OS:CIO
Associate Chief Information Officer, End User Equipment and Services OS:CIO:EU
Associate Chief Information Officer, Enterprise Services OS:CIO:ES
Director, Procurement OS:A:P
Director, Stakeholder Management Division OS:CTO:SM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Director, Program Oversight Office OS:CTO:SM:PO
       Chief, Agency-Wide Shared Services OS:A




                                                                                 Page 13
                               Additional Efforts Are Needed to Implement the
                             Electronics Stewardship Program and Maximize the
                             Energy Efficiency of Desktop Computer Equipment



                                                                                   Appendix IV

                                       Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•     Cost Savings, Funds Put to Better Use – Potential; $2.2 million per year; $8.8 million over a
      4-year period (see page 3).
•     Cost Savings, Funds Put to Better Use – Potential; $2,367,733 per year; $9,470,932 over a
      4-year period (see page 3).

Methodology Used to Measure the Reported Benefit:
Based on our analysis of industry and Federal Government results from implementing desktop
computer 1 power management capabilities and presentations from software vendors being
considered by the IRS, we determined that the IRS could potentially gain annual energy cost
savings from $19 to $25 per desktop computer if the EUES organization was to enable ENERGY
STAR features. The IRS currently has 110,000 desktop computers in inventory. Using $20 as
an estimated annual cost savings per desktop computer, the IRS could potentially save $2.2
million ($20 x 110,000) annually. The total energy cost savings is $8.8 million over a
4-year period ($2.2 million per year x 4 years).
Industry examples indicate that organizations can potentially reduce annual paper costs by at
least 30 percent by selecting duplex printing as a default setting. Based on the IRS’ paper costs
for Fiscal Year 2009 of $7,892,442, the IRS can potentially save $2,367,733 ($7,892,442 x
30 percent) annually and $9,470,932 ($2,367,733 x 4 years) over 4 years after implementing
duplex printing as a requirement.




1
    Includes both desktop and laptop computers.
                                                                                            Page 14
         Additional Efforts Are Needed to Implement the
       Electronics Stewardship Program and Maximize the
       Energy Efficiency of Desktop Computer Equipment



                                                 Appendix V

Management’s Response to the Draft Report




                                                          Page 15
  Additional Efforts Are Needed to Implement the
Electronics Stewardship Program and Maximize the
Energy Efficiency of Desktop Computer Equipment




                                                   Page 16
  Additional Efforts Are Needed to Implement the
Electronics Stewardship Program and Maximize the
Energy Efficiency of Desktop Computer Equipment




                                                   Page 17
  Additional Efforts Are Needed to Implement the
Electronics Stewardship Program and Maximize the
Energy Efficiency of Desktop Computer Equipment




                                                   Page 18
